                                                                                                     Page 1 of 1



Heneghan, Philip

From:    Heneghan, Philip
Sent:    Tuesday, March 09, 2010 3:30 PM
To:      Aranoff, Shara L.
Cc:      Heneghan, Philip; Ravesteijn, Elizabeth; Blair, Cordelia
Subject: Final FISMA Fiscal Year 2009 Performance Audit Report (OIG-AR-05-10)

OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                       WASHINGTON, DC 20436
Via Electronic Transmission

March 9, 2010

MEMORANDUM


TO:             Chairman Shara L. Aranoff


FROM:           Philip M. Heneghan, Inspector General

SUBJECT:        Final FISMA Fiscal Year 2009 Performance Audit Report (OIG-AR-05-10)


Chairman Aranoff,

Attached is the final audit report on the ITC’s information security program, conducted as part of
the FISMA 2009 review. A copy of your comments, in their entirety, has been included as an
appendix to this final report.

Please provide, within 30 days, your management decisions describing the specific actions that
you will take to address each recommendation.

Thank you for the courtesies extended to the auditors during this audit.

Philip M. Heneghan
Inspector General,
US International Trade Commission




3/15/2010
Office of Inspector General




Federal Information Security Management Act
Fiscal Year 2009 Performance Audit

March 9, 2010

OIG-AR-05-10




       United States International Trade Commission
 500 E Street, SW, Washington, DC 20436 : Phone 202.205.2000 : TDD 202.205.1810
United States International Trade Commission
Federal Information Security Management Act
Fiscal Year 2009 Performance Audit




 Prepared for the United States International Trade Commission
                                 Office of the Inspector General

                                                By KPMG LLP

                                      As of November 17, 2009
OFFICE OF INSPECTOR GENERAL




          UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


Due to the sensitive nature of the information contained in this report, we have limited its
distribution.



Philip M. Heneghan

Inspector General
